OIG Investigative Reports, Guilty Plea in $163,000 Theft from the Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Wednesday, January 22, 2003
U.S. Department of Justice
Roscoe C. Howard, Jr.
United States Attorney for the
District of Columbia
Judiciary Center
555 Fourth St. N.W.
Washington, D.C.  20001
For Information Contact Public Affairs
Channing Phillips (202) 514-6933
Guilty plea in $163,000 theft from the Department of Education
Washington, D.C. - United States Attorney Roscoe C. Howard, Jr., John P. Higgins, Inspector General for the Department of Education, and Van A. Harp, Assistant Director in Charge of the FBI's Washington Field Office, announced that Jean Williams Stancell, 53, of Fort Washington, Maryland, pleaded guilty today to one count of Conspiracy in connection with a scheme to steal $163,000 from the Department of Education by directing vendors to make fraudulent charges to Department of Education credit cards.
According to the government's proffer, from 1996 through 1999, Department of Education employee Stancell along with co-defendant Denise Silvader Estep stole property and money in the amount of $163,000 from Department of Education ("Education") by charging goods and services for themselves and others on government-issued credit cards. During the conspiracy, Estep and Stancell both worked for the Quality Workplace Group ("QWG") at Education. The mission of QW -- Education's facilities management group -- was to hire contractors to perform maintenance work at Education buildings and to purchase furniture and office supplies for Education employees. Education issued VISA credit cards to certain QWG employees in order for them to pay for goods and services. Education developed the following procedures to prevent fraudulent use of credit cards: employees were required to obtain invoices from contractors and vendors when possible, maintain logs of changes, reconcile monthly statement logs, and certify, under penalty of 18 U.S.C. § 1001, that the charges were legitimate. Stancell was assigned one of these credit cards.
According to the government's proffer, Stancell and Estep approached various vendors of Education and asked them to charge the Education credit cards for work performed for the benefit of themselves and their associates. For example, Stancell told a vendor that she would arrange for him to receive jobs at Education if he gave her money. At Stancell's direction that vendor processed fraudulent charges to Education credit cards on two occasions and then gave most of the cash generated by those charges to Stancell. Stancell later told the owner of that vendor to falsely tell the grand jury that she had given him something in exchange for the money that he had given her.
The government's proffer also indicated that Stancell introduced another vendor to Estep who charged Education credit cards for work that was never performed. Although that vendor performed just one job for Education, he submitted charges over the next 22 months. Stancell was aware of the fraudulent nature of some of those charges and, on at least one occasion, provided false invoices to the government to hide the true nature of the transactions.
Finally, the government's proffer stated that Stancell was aware that Estep used government-issued credit card to buy furniture for herself and others from Aaron Rents, Inc. Stancell herself received an entertainment center, glass top tables, and other furniture from Aaron Rents purchased with an Education credit card.
In announcing this plea, United States Attorney Howard, Inspector General John P. Higgins, and Assistant Director in Charge Harp, commended Education's Office of Inspector General, including Special Agent in Charge for the Washington and Philadelphia Investigation Region Valerie Schwarzenbach, Special Agent George Blissman, and Special Agent Ross Campbell and the Federal
Bureau of Investigation, including Special Agent Lauren LeMay. In addition, he praised Paralegal
Specialist Jeanie Latimore-Brown and Auditor Sandra Henderson. He also commended Assistant U.S.
Attorneys Ann Rosenfield, Virginia Cheatharn, and Elizabeth Coombe.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov